Audit of USAID/Peru’s Management of U.S.
Personal Services Contractors

Audit Report No. 1-527-04-004-P

January 14, 2004




            San Salvador, El Salvador
January 14, 2004

MEMORANDUM

FOR:          USAID/Peru Mission Director, Patricia K. Buckles

FROM:         Regional Inspector General/San Salvador, Steven H. Bernstein

SUBJECT:      Audit of USAID/Peru’s Management of U.S. Personal Services
              Contractors (Report No. 1-527-04-004-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered your comments on our draft report and have included your response in
Appendix II.

This report contains one recommendation for your action. Based on your
comments, a management decision has been reached for this recommendation. A
determination of final action will be made by the Bureau for Management’s
Office of Management Planning and Innovation (M/MPI/MIC).

As a result of implementing the recommendation, we estimated, and you
concurred, savings to be $2,800.

Once again, thank you for the cooperation and courtesy extended to my staff
throughout the audit.




                                                                               1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                    5
Contents
           Background                                                            5

           Audit Objectives                                                      6

           Audit Findings                                                        6

                  Did USAID/Peru determine its requirements for U.S. personal    6
                  services contractors in accordance with USAID policies and
                  procedures?

                  Did USAID/Peru award U.S. personal services contracts in       9
                  accordance with selected USAID policies and procedures?

                            Salary Exceeded Market Value of Position            12

           Management Comments and Our Evaluation                               12

           Appendix I – Scope and Methodology                                   13

           Appendix II – Management Comments                                    15




                                                                                     3
This page intentionally left blank.




                                      4
Summary      The Regional Inspector General/San Salvador conducted an audit to assess whether
of Results   (1) USAID/Peru determined its requirements for U.S. personal services contractors
             (USPSCs) in accordance with USAID policies and procedures, and (2) if
             USAID/Peru awarded U.S. personal services contracts in accordance with selected
             USAID policies and procedures (page 6).

             USAID/Peru determined its requirements for U.S. personal services contractors in
             accordance with USAID policies and procedures (page 6).

             USAID/Peru awarded U.S. personal services contracts in accordance with
             selected USAID policies and procedures, except in one case where a USPSC’s
             salary exceeded the market value of the USPSC’s position (page 9).

             We made one recommendation to address the item discussed in this report. We
             recommended that USAID/Peru renegotiate the contract amount to conform to the
             new salary table that will be issued in January 2004 (page 12).

             USAID/Peru agreed with the recommendation in this report and will take final
             action when the new salary table is issued in January 2004 (page 12).



Background   USAID designs and implements humanitarian and economic assistance programs
             overseas. To accomplish this work, it obtains the services of U.S. citizens and
             foreign nationals under a variety of mechanisms.

             USAID’s core workforce includes employees from four categories:

                  •   U.S. Direct Hires (USDHs) - U.S. Foreign Service and U.S. Civil Service
                  •   U.S. Personal Service Contractors (USPSCs)
                  •   Foreign Service Nationals (FSNs)
                  •   Third Country Nationals (TCNs)

             As of December 31, 2002, USAID had 7,912 employees, of which 2,156 were
             USDHs, 587 were USPSCs, 4,816 were FSNs or TCNs, and the remaining 353
             employees fell into other categories.

             USPSCs are one of the primary sources of specialized assistance available to
             managers in designing and implementing development assistance programs and in
             providing administrative support. A personal services contractor is defined as a
             contractor that, by its express terms or as administered, make the contractor
             appear in effect, a government employee. Depending on the nature of duties and
             responsibilities assigned USPSCs, these employment contracts may be funded
             from either program or operating expense accounts and may be either long term
             (over one year in duration) or short term (less than one year in duration).


                                                                                                5
                 There are two types of USPSCs: Locally Recruited and Internationally Recruited.

                 Locally Recruited

                 USPSCs recruited locally offer skills and experience that are not available in the
                 local labor force or that would be expensive to import. Locally recruited USPSCs
                 often provide services that are short term in nature, such as administrative
                 management, secretarial functions, and project management. These individuals
                 receive limited benefits and allowances.

                 Internationally Recruited

                 USPSCs recruited internationally often possess specialized technical skills. These
                 individuals are often recruited under long term contracts and receive benefits and
                 allowances that are similar to those of a USDH.

                 Each year, USAID/Washington’s Office of Budget establishes a target workforce
                 ceiling for USAID/Peru and controls and monitors the Mission’s overall
                 allocations and on-board staffing levels. Within these target workforce ceilings,
                 USAID/Peru’s program managers can prepare workforce requests which reflect the
                 needs of each of their offices in order to carry out USAID’s program objectives.



Audit             As part of its fiscal year 2004 audit plan, and in connection with the Office of
Objectives        Inspector General worldwide audit on the topic, the Regional Inspector General/San
                  Salvador performed this audit to answer the following questions:

                 1.   Did USAID/Peru determine its requirements for U.S. personal services
                      contractors in accordance with USAID policies and procedures?

                 2.   Did USAID/Peru award U.S. personal services contracts in accordance with
                      selected USAID policies and procedures?

                 Appendix I describes the audit's scope and methodology.



Audit Findings    Did USAID/Peru determine its requirements for U.S. personal services
                  contractors in accordance with USAID policies and procedures?

                  USAID/Peru determined its requirements for U.S. personal services contractors in
                  accordance with USAID policies and procedures.




                                                                                                   6
According to the Automated Directives System (ADS) Series 400, Interim Update
No. 2, “Appropriate Use and Funding of USAID’s Non-Direct Hire Workforce,”
the different types of employee categories at USAID can be used by managers in
determining the appropriate treatment of differing staff resources. Specifically,
establishing a contract position for a U.S. citizen should only be considered when
the staffing requirement is clearly temporary in nature, when the duties and
responsibilities of the position make the local recruitment of U.S. citizens
uniquely suitable, or when all alternatives for utilizing direct hires have been
exhausted.

For the fiscal years 2002 through 2006, USAID/Peru had a target workforce
ceiling of 148 individuals. USAID/Peru management made adjustments within
employee categories to ensure that the technical skills of Mission staff match
programmatic requirements to establish more effective and efficient
organizational structures. Table 1 below shows a breakdown of USAID/Peru’s
target workforce ceiling and workforce level as of October 2003 by employee
category.

Table 1 – USAID/Peru Workforce
          Employee Category             Target Workforce              Workforce Level
                                             Ceiling                  (October 2003)
    U.S. Direct Hire (USDH)                    18                           19

    U.S. Personal Services                        6                          61
    Contractor (USPSC)

    Foreign Service National/                    124                        114
    Third Country National
    (FSN/TCN)

    Totals                                       148                        139


As part of the Mission’s process for determining its staffing needs, it considered
the following factors:

      •    Type of staff needed (USDH/USPSC/FSN/TCN)

      •    Suitability of U.S. citizen for position being recruited

      •    Use of U.S. direct hires, unless all alternatives for such use have been
           exhausted

_____________________________
1
    All seven active USPSCs from USAID/Peru were reviewed. One of these active USPSCs was
    hired on a part-time basis and, therefore, was not counted against the staffing ceiling.


                                                                                          7
    •   Use of reemployed annuitants2

    •   Clearly temporary nature of the position

    •   Functional type needed (e.g., Controllers, Contracting Officers, Project
        Development Officers)

    •   Experience and knowledge of current workforce

    •   Existing skill gaps

    •   Experience and knowledge needed

    •   Classification of position (local or international recruit)

    •   Political priority/strategic interest

    •   Size and diversity of program

    •   Budget limitations

    •   Staffing ceilings

Mission managers were responsible for assessing program staffing needs to carry
out program objectives. Factors such as political priority and strategic interest
have caused them to examine the need for some functional changes both on the
strategic side and the management side. Mission managers performed a thorough
assessment of the program objectives to identify specific roles and activities
needed to achieve program objectives. This assessment entailed identifying the
knowledge and skills needed to address the program objectives, the knowledge
and skills of the current workforce, and how best to achieve the program
objectives within the Mission’s budget and staffing limitations.

Specifically, in establishing the USPSC positions, mission managers considered
that the staffing requirement was clearly temporary in nature, and that the duties
and responsibilities of the position made the recruitment of a U.S. citizen uniquely
suitable. The mission managers considered the use of U.S. direct hires prior to
establishing a USPSC position, however due to staffing and budget limitations,
USPSCs were used. Also, according to the Mission, reemployed annuitants


_______________________
2
  A reemployed annuitant is a former Federal employee/appointee who is separated from the
  Federal service under an Optional, Discontinued Service (Involuntary), or Disability
  Retirement; receives a retirement annuity from the Federal government as a result of their prior
  service; and, is reappointed to the roles of the Federal government.


                                                                                                8
would be difficult to recruit because an individual would not likely consider going
back overseas, when he or she could do the same thing as a USPSC and still draw
full retirement at the same time. For this reason, reemployed annuitants were not
used.

Through these assessments, mission managers appropriately determined their
need for USPSCs to carry out the Mission’s program objectives.

Did USAID/Peru award U.S. personal services contracts in accordance with
selected USAID policies and procedures?

USAID/Peru awarded U.S. personal services contracts in accordance with USAID
policies and procedures related to full and open competition, establishing fringe
benefits and establishing salaries, except in one case where a USPSC’s salary
exceeded the market value of the USPSC’s position.

According to the Federal Acquisition Regulation (FAR), Subpart 6.1-Full and
Open Competition, contracting officers shall promote and provide for full and
open competition in soliciting offers and awarding Government contracts.
Contracting Officers shall provide for this full and open competition through the
use of the competitive procedures such as sealed bids and competitive proposals
that are best suited to the circumstances of the contract action and consistent with
the need to fulfill the Government’s requirements efficiently.

However, Contract Information Bulletin 97-16 states that full and open
competition need not be obtained when it would impair or otherwise have an
adverse effect on programs conducted for the purposes of foreign aid, relief, and
rehabilitation. A justification for other than full and open competition is
authorized for personal services contracts with U.S. citizens contracted locally,
and with Cooperating Country Nationals3 and Third Country Nationals subject to
the local compensation plan, and for overseas contracts of $250,000 or less. A
justification can be authorized as long as two conditions are met: (1) offers are
requested from as many potential sources as is practicable under the
circumstances, and (2) justification supporting less than full and open competition
is prepared.

The contract files of the ten USPSCs selected for testing revealed the following:




_____________________
3
  An individual who is a permanent resident in the country in which the employing USAID
  mission is located.



                                                                                     9
Table 2 – Contracts Awarded

 Contracts Awarded Under           Contracts Awarded Under              Total
 Full and Open Competition         Other Than Full and Open           Contracts
                                         Competition
               4                                 6                        10

U.S. personal services contracts were awarded in accordance with the policies and
procedures as they relate to full and open competition. For example, prior to
awarding the contract, the personal services contractor availability list was
reviewed, the position was advertised on the USAID external internet, the scoring
and ranking of each proposal was made, and the methodology for the selection of
the candidate was documented in the files. For the six contracts awarded under
other than full and open competition, the contract files indicated that offers were
requested from as many potential sources as was practicable under the
circumstances, and authorization for other than full and open competition for
personal services contracts with U.S. citizens contracted locally of $250,000 or
less was documented.

Establishing fringe benefits is another element of awarding contracts. According
to the USAID Acquisition Regulation (AIDAR) Appendix D, USPSCs are not
eligible to participate in any programs based on laws administered by the Federal
Office of Personnel Management, such as incentive awards, life insurance, health
insurance and retirement. However, internationally recruited USPSCs are entitled
to certain fringe benefits, such as:

       •   Employer’s contribution to USPSC’s individual health, retirement and
           life insurance plan

       •   Home leave

       •   Rest and Recuperation Travel

       •   Post differential

       •   Living quarters allowance

       •   Temporary lodging allowance

       •   Post allowance

       •   Supplemental post allowance

       •   Payments during evacuation


                                                                                10
          •    Education allowance

          •    Separate maintenance allowance

          •    Education travel

          •    Travel and transportation

Locally recruited USPSCs are not eligible to receive any of the benefits listed
above except employer contributions to the USPSC’s individual Federal
Insurance Contributions Act (FICA), health and life insurance plan unless the
USPSC can demonstrate that he or she has received similar benefits and
allowances from his or her previous, local employer.

Of the ten USPSCs reviewed, three were locally recruited while seven were
internationally recruited. Based on interviews with the USPSCs and review of
contract files and payroll records, all the USPSCs received only those benefits
allowed to them in accordance with the stated USAID policy and procedure.

Establishing salaries is another element in awarding USPSC contracts. According
to AIDAR Appendix D, salaries for U.S. personal services contractors should be
established based on the market value in the United States of the position being
recruited. The Contracting Officer, in coordination with the Cognizant Technical
Officer, should determine the correct market value (a salary range) of the position
to be filled. The market value of the position, along with the applicant’s certified
salary history, will serve as the basis for salary negotiations. However, the final
determination regarding the reasonableness of a salary level rests with the
Contracting Officer.

Also, according to Contract Information Bulletin (CIB) 98-16, USPSCs can
receive a three percent salary increase each year for satisfactory performance in
addition to the pay comparability adjustments4 if funds are available. USPSCs
can continue to receive the three percent annual salary increase for satisfactory
performance unless that increase would raise an individual’s salary beyond the
maximum limit of the salary range. An individual’s salary can not exceed the
upper limit of a position’s market value. However, this does not affect the pay
comparability adjustments.

For all ten contracts reviewed, the Mission established a reasonable market value
for the position being recruited and the contract files contained documentation

___________________________
4
    As part of the annual locality pay adjustment process, a comparison of pay rates under the
    General Schedule for non-Federal workers for the same levels of work within each locality pay
    is performed, and based on surveys conducted by the Bureau of Labor Statistics each locality in
    which a pay disparity exists, the size of each pay disparity is identified and appropriate
    comparability payments are recommended.


                                                                                                11
                 supporting the salary determination. Moreover, for nine of the ten contracts, the
                 Mission correctly authorized salary and pay comparability increases in
                 accordance with the stated USAID policy and procedure. However, in one case, a
                 USPSC’s salary exceeded the market value of the USPSC’s position.

                 Salary Exceeded Market Value of Position

                 In 1996, at the start of the contract, a USPSC was hired at the General Schedule
                 (GS) - 09 Step 10 equivalent (market value of position). In September 1998,
                 contrary to CIB 98-16 stated above, the USPSC received the three percent annual
                 increase, causing earnings to exceed the market value of the position. Currently,
                 the salary for the USPSC is $48,942, which is approximately $2,800 above the
                 maximum value of the position.

                 The Mission disallowed the three percent annual salary increase in January 1999,
                 and only allowed the pay comparability increases. However, because the Mission
                 had not considered the maximum salary authorized for the position, the past
                 years’ increases were given in error. As a result, the cumulative earnings above
                 the market value or unnecessary costs to the U.S. Government totaled
                 approximately $14,800.

                        Recommendation No. 1: We recommend that USAID/Peru
                        renegotiate the contract amount to conform to the new salary
                        table that will be issued in January 2004 by the Office of
                        Personnel Management.



Management       In responding to our draft report, USAID/Peru agreed with the report, including
Comments and     the recommendation, and has already informed the USPSC of the adjustments that
Our Evaluation   will be necessary. Once the new salary table is available, the Contracting Officer
                 will adjust the USPSC’s compensation appropriately.              Accordingly, a
                 management decision was made for the recommendation. The Mission’s
                 comments are included in their entirety in Appendix II.




                                                                                                12
                                                                                                 Appendix I



Scope and     Scope
Methodology
              We audited the management of U.S. personal services contractors (USPSCs) at
              USAID/Peru in accordance with generally accepted government auditing standards
              from November 3, 2003 to November 13, 2003.

              The audit focused on 1) whether USAID/Peru determined its requirements for U.S.
              personal services contractors in accordance with USAID policies and procedures and 2)
              whether USAID/Peru awarded U.S. personal services contracts in accordance with
              selected USAID policies and procedures related to full and open competition,
              establishing fringe benefits and establishing salaries.

              In conducting our audit, we assessed the effectiveness of USAID/Peru’s management
              controls with respect to determining its requirements for U.S. personal services
              contractors, and awarding those contracts as they relate to full and open competition,
              establishing fringe benefits and establishing salaries for USPSCs.

              Our audit scope included all active USPSCs as of November 3, 2003 (the date of
              fieldwork) and one5 judgmentally selected expired U.S. personal services contract.
              Because USAID/Peru has responsibility for recruiting USPSCs on behalf of
              USAID/Ecuador, our scope for audit objective two included seven active USPSCs at
              USAID/Peru, one expired U.S. personal services contract at USAID/Peru, and two
              USPSCs at USAID/Ecuador for a total of ten USPSCs. However, since overall
              workforce and staffing decisions for USAID/Ecuador are made by USAID/Ecuador,
              our scope for audit objective one was limited to USAID/Peru.

              Methodology

              To answer audit objective one, we interviewed the Mission Director, Contracting
              Officer, Program Officer, Controller and Team Leaders of each of the programs that
              employed an active USPSC as of November 3, 2003. The programs were Alternative
              Development, Education and Economic Growth.

              We also reviewed pertinent documentation such as USAID/Peru’s Strategic Plan for
              fiscal years 2002 through 2006, the Annual Report for fiscal year 2003, and activities
              approval documents for the Alternative Development, Education and Economic Growth
              programs for fiscal year 2003.

              In addition, we reviewed how USAID/Peru determined its staffing needs, whether it
              considered the appropriate employee category (particularly the use of USPSCs), and
              whether it considered the factors mentioned on page 7 in making its determinations.


              __________________________
              5
                  There were a total of seven active USPSCs on October 1, 2002, whose contracts had expired by
                  November 3, 2003.


                                                                                                           13
                                                                            Appendix I


Further, we judged whether the Mission’s basis for any such determination was
reasonable.

If the results of our audit procedures indicated that the criteria had been met, we would
issue an unqualified (positive) opinion. If the results of our audit procedures indicated
that the criteria had not been met, we would issue a negative opinion.

To answer audit objective two, we interviewed all the active USPSCs including those at
USAID/Ecuador and the Contracting Officer.              We also reviewed pertinent
documentation such as contract files and payroll records for all the USPSCs selected.

The second audit objective addressed whether USAID/Peru awarded its U.S personal
services contracts in accordance with USAID policies and procedures. To answer this
objective, we set the following criteria that USAID/Peru had to meet:

   1. U.S. personal services contracts were awarded under full and open competition.
      If other than full and open competition was used, two conditions were met: (a)
      offers were requested from as many potential sources as is practicable under the
      circumstances, and (b) justification supporting less than full and open
      competition was prepared.

   2. Internationally recruited and locally recruited USPSCs only received the fringe
      benefits that were authorized to them in accordance with USAID policies and
      procedures as stated on page 10.

   3. Salaries established for the USPSCs were reasonable, and documentation
      supporting such determinations was available. Also, salary increases and pay
      comparability were given in accordance with USAID policies and procedures.

If the results of our audit procedures indicated that all ten of the USPSCs met all the
criteria defined above, we would issue an unqualified opinion. If nine of the USPSCs
met all the criteria defined above, we would issue a qualified opinion. If less than nine
of the USPSCs met all the criteria above, we would issue a negative opinion.

The audit was not designed to assess the overall economy and efficiency of the personal
services contracting process.




                                                                                      14
                                                                                         Appendix II




Management
Comments
                                                                          MEMORANDUM

       From:         Patricia K. Buckles
                     Mission Director – USAID/Peru

       To:           Steven Bernstein
                     Inspector General – USAID/El Salvador

       Subject:       Audit of USAID/Peru’s Management of U.S. Personal Services Contractors
                     (Report No. 1-527-04-00X-P)
                     Mission Response

       Date:         December 30, 2003

       This memorandum responds to your December 18, 2003 draft report and request for Mission
       comments. As requested, we are commenting on the finding and outlining relevant action
       planned.

       In general, we concur with the finding set forth under Salary Exceeded Market Value of
       Position on page 11 of the report. As a clarification, we would like to point out that the
       wording could be interpreted as though both three percent annual plus pay comparability
       increases took place repeatedly. What was determined during the audit was that in June 1998
       the USAID/W Office of Procurement clarified via CIB 98-16 that USPSC salaries should be
       capped by the maximum limit of their salary range. Shortly thereafter, but only once - in
       September 1998 – were both the three percent annual and pay comparability increases given.
       Thereafter, the Mission followed the CIB and only pay comparability increases were provided,
       but of course the employee’s salary continued to exceed the top of the range due to the earlier
       action. As for the recommendation:

               Recommendation No. 1: We recommend that USAID/Peru renegotiate the
               contract amount to conform to the new salary table that will be issued in January
               2004 by the Office of Personnel Management.

       We concur. The employee concerned has been alerted to the fact that some adjustment will be
       necessary. Once we have the new salary table information, the Mission Contracting Officer
       will adjust the USPSC’s compensation in an appropriate manner.

       This completes our comments on the draft report. We also appreciated the opportunity to
       review USAID/Peru’s management of USPSC’s with your visiting team, and will look forward
       to receiving the final report.




                                                                                                   15
